                         I
                                   .rPc


                         4                      NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

                      - '" -
Case Number:    '~~(il~-60E7.$F-
                                                                              11            Page 1 of 1




                                                                                      lleging that=
                                                                                     pector General (OIG)

                                                                                      nds from the National
      Institute of Health (NIH) for research previously funded by NSF grant #: .

     On               .            was awarded a three-year NSF grant in the amount of $200,000
     accomplish two specific research aims in the field of                                  In
                    applied for. and received, a second grant from NIH                  . The NIH
     grant was awarded to accomplish three specific research aims, one

                    overlapped with the second NSF research aim funded by the previously awarded
     NSF grant.

     Documents received from NIH disclosed that                 NIH grant application did not disclose the


                                                                                                  =
     fact that she was already receiving funding frorr~NSF for the overlapping research aim. As a result,
     NSF terminated the award in                    and the unexpended funds in the amount of $77,962
     have been recovered. ,The facts disclosed in this investigation have been referred to
     ,        NIH. With no further investigative leads remaining it is recommended that this case be
     closed.




                         Agent                  Attorney                Supervisor                  AIGI
                I                         1
  Sign / date
                                    I                                                               OIG-02-2   '
